Case No. _____________

In The
Supreme Court of the United States

SHUNTARIO JOHNSON,
Petitioner,
v.

UNITED STATES OF AMERICA
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

The undersigned, appointed counsel under the Criminal Justice Act, certifies
that on the 9th day of March 2021, pursuant to Supreme Court Rule 29.3, he served
Shuntario Johnson’s Motion for Leave to Proceed in Forma Pauperis, Petition for
Writ of Certioraria, and the Appendix, by both e-mail and mail, postage prepaid on
the following counsel for the United States:

Page 1 of 2

